<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                         TUESDAY, MARCH 1, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven, Cassidy, Shaheen, and Tester.

                    DEPARTMENT OF HOMELAND SECURITY

                 Transportation Security Administration

STATEMENT OF HON. PETER V. NEFFENGER, ADMINISTRATOR

                OPENING STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. This hearing of the Homeland Security 
Appropriations Subcommittee will now come to order. I would 
like to thank Ranking Member Shaheen for being here with us, 
also Senator Tester. I know we will have other members of the 
subcommittee joining us in progress.
    I want to welcome Administrator Neffenger. We appreciate 
your appearance here. And we appreciate the hard work that you 
are doing, since you have come to the Transportation Security 
Administration (TSA) from your work with the Coast Guard, so I 
want to thank you up front.
    I have an opening statement, and then I will offer the same 
opportunity to the ranking member, and other Senators that may 
have an opening statement, and then, of course, welcome your 
opening remarks, Administrator. Then we will go to 5-minute 
rounds of questions and answers.
    A hearing examining TSA is arguably one of the most 
important hearings this subcommittee can have before the 
American people. As an agency that interacts with nearly 2 
million passengers every day, it is undoubtedly the face of the 
Department of Homeland Security (DHS). As such, that 
interaction must be discreet, professional, and effective.
    Findings of the Inspector General last summer damaged the 
perception that the American people are getting real security 
for their interaction with TSA. So I am hoping we can talk 
today about how that is being remedied. I know you have been 
working very hard on doing just that.
    The officers of TSA, like many of their counterparts at the 
Department of Homeland Security, have sworn an oath to uphold 
the Constitution and protect us against all enemies foreign and 
domestic. The threat that we face is very real. Unlike al Qaeda 
of a decade ago, the threat is decentralized and rapidly 
evolving.
    In October last year, the Islamic State claimed 
responsibility for the downing of Metrojet Flight 9268 
traveling from Egypt to Russia, killing 224 people.
    Just last month, an explosion blew a hole in the side of a 
commercial jet after takeoff in Mogadishu. It took one life and 
injured many others.
    Perhaps more troubling is that terrorist groups posted how-
to manuals online after these attacks with instructions for 
building bombs, avoiding airport security measures, and placing 
bombs in identified locations on a plane.
    Balancing these threats, we are also confronted with the 
realities that our transportation security system, despite 
being a model for much of the world, still faces an uphill 
battle. TSA must engage in continual self-evaluation and avoid 
complacency. If it is to receive billions of dollars annually 
from the taxpayers for its layers of security, we need to ask 
hard questions and get honest answers about their 
effectiveness. We will do just that today, as we examine the 
fiscal year 2017 budget.
    These layers are the people, processes, and technology at 
TSA. It takes all three--people, processes, and technology. 
They start with intelligence programs and passenger 
prescreening conducted in advance of travel. They proceed 
through the checkpoint and culminate in the airplane with 
hardened cockpit doors, air marshals, trained crewmembers, and 
armed pilots.
    All of these layers taken together are intended to be adept 
and agile in response to the changing tactics of those who aim 
to hurt us. This agility is particularly important given the 
adversaries' continual fascination with commercial aviation. 
And it does seem to be the focus of these attacks, commercial 
aviation.
    We held a hearing last fall on the Inspector General's 
covert test findings. I do not intend to rehash those findings 
now, but I do expect to hear that these findings are being 
addressed and that every employee at TSA is being given the 
tools to provide the best possible security.
    Further, when there is a crack in the system, TSA employees 
must feel confident they can speak up and be heard. That is 
very important.
    I believe, Administrator Neffenger, that you understand how 
important that is as well.
    TSA screeners have a challenging job. They must stay laser-
focused while performing monotonous tasks in a high-pressure, 
high-throughput, and high-customer demand environment. That is 
a challenging job.
    It is incumbent upon the leadership to remove all hurdles 
and help them succeed on a consistent and timely basis.
    I look forward to questioning the administrator on your 
progress, on how this budget reflects your priorities, which we 
need to talk about, and your views on the right metrics to 
measure progress. Metrics are very important, so we can track 
our performance and figure out where we need to expend 
additional resources and what areas need more attention.
    So with that, I would like to turn to Ranking Member 
Shaheen for her opening comments.

                  STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Thank you, Mr. Chairman.
    Welcome, Administrator Neffenger. We are pleased to have 
you here to testify today about TSA's budget request for fiscal 
year 2017. And also, I look forward to getting a progress 
report on improvements that have been made to passenger 
screening operations in the wake of last year's Inspector 
General report.
    I also want to thank you very much for sending a memo back 
in December that really detailed the agency's response to the 
Inspector General's findings. It was very detailed and very 
helpful. I very much appreciate the enthusiasm and energy and 
commitment that you are bringing to your role as administrator.
    One of the things that the TSA concluded as the result of 
those Inspector General findings was that the mission was 
disproportionately focused on screening efficiency and speed, 
rather than security effectiveness. I look forward to hearing 
the solutions you are pursuing to rebalance the agency's 
approach.
    As the chairman has said, the traveling public needs to be 
assured the TSA is able to deter, detect, and disrupt aviation 
security threats. Gaining the public's confidence can only be 
achieved through results. That will take a renewed focus on 
work force training, on improved procedures to resolve alarms, 
on better detection technologies, and stronger partnerships 
with industry to reduce the amount of clutter and stress at 
airport checkpoints.
    We really do need to get this right. As Chairman Hoeven 
alluded to the two very high-profile attacks on commercial 
airliners in the last year, the public is obviously paying 
attention to that.
    I am also concerned that a significant portion of TSA's 
2017 budget request relies on an increase in aviation security 
fees. I think these fees are not likely to be enacted, so I am 
concerned about what happens to the shortfall when those fees 
are not enacted, and what TSA plans to do in that regard.
    So thank you for your focus on these issues and for being 
here to testify today, and I look forward to hearing from you 
today.
    Senator Hoeven. I would ask Senator Tester if he has an 
opening statement?
    Senator Tester. I will hold my opening statement for the 
record. Thanks, Mr. Chairman, I look forward to the 
administrator's remarks and the Q&A. Thank you.
    [The referenced statement was not available at press time.]
    Senator Hoeven. With that, Mr. Administrator, the floor is 
yours for your opening comments.

              SUMMARY STATEMENT OF HON. PETER V. NEFFENGER

    Mr. Neffenger. Thank you, Chairman Hoeven. Good afternoon. 
Good afternoon, Ranking Member Shaheen, and distinguished 
members of the committee.
    Thank you for your opening comments and for the opportunity 
to testify today on behalf of the President's fiscal year 2017 
budget, which includes $7.6 billion for TSA.
    The budget provides funding to sustain and strengthen the 
critical mission of TSA, protecting the Nation's transportation 
system and ensuring the freedom of movement of people and 
commerce. Transportation underpins the entire economic health 
of this country. We depend upon it, and protecting it is one of 
the most important services our government provides the 
American people.
    It is now 8 months since I joined TSA on July 4 of last 
year, and of the many positive impressions, the most profound 
is the one I have gleaned from our work force. TSA's nearly 
60,000 security professionals are dedicated to a demanding and 
challenging mission, and they are our most important resource. 
They are incredibly patriotic and compassionate about our 
counterterrorism mission, and they will deliver excellence, if 
properly trained, equipped, and led.
    This budget is a modest increase over last year and will 
enable TSA to more fully renew its focus on security 
effectiveness. It annualizes the investments made in our 
frontline work force, our screening technology, and the new TSA 
Academy, and sets the foundation for the transformation of TSA 
into the professional counterterrorism and security agency the 
American people deserve.
    I would like to thank this committee for its commitment to 
our mission and for holding frontline staffing levels steady in 
the face of dramatic increases in passenger volume and a 
dynamic threat environment.
    This budget also enables us to hire air marshals consistent 
with a risk-based concept of operations, modestly increases our 
intelligence capability, and invest further in the TSA Academy.
    We have made great strides in addressing the challenges we 
faced last summer. To ensure that we do not repeat past 
mistakes, determining root causes of the problems identified 
has been my utmost concern.
    Delivered in a classified report to Congress in January, we 
concluded that strong drivers of the problem included a 
disproportionate focus on efficiency, environmental influences 
that create stress in checkpoint operations, and gaps in system 
design and processes.
    I am proud to report that we are refocused on our primary 
mission. We have retrained our entire work force, corrected 
procedures, improved our technology, and analyzed systemic 
issues. We are emphasizing the values of discipline, 
competence, and professionalism in resolving every alarm. And I 
am confident that we have corrected the immediate problems. And 
I am also confident that TSA is able to deter, detect, and 
disrupt threats to our aviation system.
    TSA will continue to partner with the airlines, airport 
operators, and the trade and travel industry, to identify 
solutions that can reduce the stress on the checkpoint, and we 
must continue to right-size and resource TSA appropriately to 
ensure that we continue to be responsive to the public we 
serve.
    Moving forward, we are guided by a principled approach that 
is essential to successful enterprise leadership. We are 
intensely focusing on the central unifying purpose of TSA, 
which is to deliver transportation security. We are aligning 
our strategic guidance, our operational plans, our measures of 
effectiveness, our system design, and performance evaluations 
to this core purpose.
    The unity of effort that we expect has been memorialized in 
my Administrator's Intent. This is a document that I published 
in January, copies of which I provided to the members of this 
committee. Mission success is built on a shared understanding 
of objectives, unity of purpose, and alignment of values and 
principles. My intent articulates those objectives for every 
member of the work force, an approach that we will pursue in 
accomplishing our central mission and the values and principles 
that define TSA.
    Simply stated, we will focus on mission, invest in people, 
and commit to excellence.
    Our self-examination gave us insight into imperatives for 
change and how we must evolve. We must adapt faster than the 
enemy, invest at the pace of the threat, build resiliency into 
operations. And we must do so in a rapidly growing sector of 
the American economy.
    My key objective is to continue to position TSA as a 
counterterrorism organization that is built on a foundation of 
strategy, intelligence, and risk management, and able to 
rapidly adapt to a strategic environment. We are undertaking a 
series of foundational efforts, including a comprehensive 
assessment of our acquisition system; building a planning, 
programming, budgeting, and execution system; developing 
enterprise-wide human capital management strategy; reviewing 
our staffing model to ensure operational focus and agility; and 
fielding an agency-wide training strategy, which includes new 
officer training, continuing professional education, and 
leadership training and development.
    We are rethinking how we invest in technology and are 
partnering with several airlines and airports to develop and 
install in the near future a dramatically improved passenger 
screening environment.
    Of utmost importance, TSA must remain committed to the 
values that public service demands. I have challenged our 
leaders at every level to commit themselves to selfless and 
ethical service. As I discover questionable policies or 
unjustifiable practices, I will fix them. I demand an agency 
that is values-based and infused with character from top to 
bottom. This is my solemn duty, and it is what the American 
people expect of their government and those in whom they 
entrust their security.
    Many profound and important tasks lay ahead for TSA, but I 
believe we are on a sound trajectory, and I am optimistic about 
the future.
    As I have relayed in my intent, we will focus on mission, 
invest in our dedicated work force, and we will commit to 
excellence in all that we do. I thank you again for the 
opportunity to appear before you today, and I look forward to 
your questions.
    [The statement follows:]
             Prepared Statement of Hon. Peter V. Neffenger
                              introduction
    Good afternoon Chairman Hoeven, Ranking Member Shaheen, and 
distinguished members of the Committee. Thank you for the opportunity 
to testify today on behalf of the President's fiscal year 2017 budget, 
which includes $7.6 billion for the Transportation Security 
Administration (TSA).
    The fiscal year 2017 budget provides funding to sustain and 
strengthen the critical mission of TSA--protecting the Nation's 
transportation system and ensuring the freedom of movement of people 
and commerce. Transportation, as you know, underpins the entire 
economic health of this country. We all depend on it, and protecting it 
is one of the most important services our government provides the 
American people.
    Created 2 months after 9/11, TSA, and the underlying rationale for 
its existence remain as compelling today as in 2001. We are challenged 
by a complex and dynamic threat environment, one in which the global 
terrorist threat has evolved from a world of terrorist-directed attacks 
to a world that includes the threat of terrorist-inspired attacks.
    In addition to expanding threats with a number of groups with whom 
to contend, these groups have mastered social media to recruit members, 
and inspire action against vulnerable and high profile objectives. 
Aviation remains a prime target for terrorist groups, as demonstrated 
with the destruction of Metrojet Flight 9268 above the northern Sinai 
on October 31, 2015, and most recently on February 2, 2016, during an 
attack on Daallo Airlines, where explosives detonated during its ascent 
from Adde International Airport in Mogadishu.
                         a national imperative
    The security and economic prosperity of the United States depends 
significantly on the effective and efficient operation of its 
transportation system. We know terrorists, criminals, and hostile 
nation-states have long viewed transportation sectors, particularly 
aviation, as a leading target for attack or exploitation. Thus, our 
mission remains a national imperative.
    Our officers, inspectors, air marshals, canine handlers, and other 
security professionals here in the United States and around the globe 
are committed to our mission, and they are our most important resource. 
While operating in the present, we also must envision the future, 
seeking new ways to enhance our effectiveness across a diverse 
transportation enterprise, challenged by a persistent threat.
                the fiscal year 2017 president's budget
    The fiscal year 2017 budget of $7.6 billion will allow TSA the 
opportunity to more fully address the additional requirements 
identified last year in response to findings from covert testing of 
screening processes and procedures by the Department of Homeland 
Security's (DHS) Office of the Inspector General (OIG). Specifically:
  --$3.0 billion to support 42,848 FTE Transportation Security Officers 
        (TSOs), an increase of $72.1 million and 323 FTE over fiscal 
        year 2016, to ensure effective screening operations while 
        minimizing wait times. This funding will help to ensure that 
        TSA maintains an appropriate staffing level at our checkpoints.
  --$200 million for transportation screening technology, enabling TSA 
        to continue improving the capabilities of its checkpoint 
        screening equipment throughout nearly 430 airports. This amount 
        continues the additional $15 million provided in fiscal year 
        2016, and adds another $5 million for new capabilities to 
        enhance the checkpoint x-ray units, thus increasing the TSOs' 
        ability to find prohibited items in carry-on bags.
  --$116.6 million to provide training for TSA frontline employees, 
        including new basic training initiated in January 2016 at the 
        TSA Academy located at the Federal Law Enforcement Training 
        Center in Glynco, Georgia. To date, 541 new hires have 
        graduated from this program, and TSA will train another 4,835 
        frontline employees this year. In fiscal year 2017 TSA will 
        complete construction of modular facilities to house this 
        effort, expanding capacity to 7,300 TSOs annually.
  --$83.5 million for TSA's intelligence operations, an increase of 
        $2.0 million to continue the expansion of intelligence officers 
        in frontline facilities to improve information sharing.
  --$10 million to replace IT infrastructure, including network 
        components and outdated operating systems, that has not only 
        reached its end-of-life, but more critically has become 
        vulnerable to cybersecurity threats.
    The fiscal year 2017 budget continues and builds on the investments 
made in fiscal year 2016. As you understand from your review of last 
year's budget, fiscal year 2016 was an austere budget year for the 
agency and on behalf of TSA I would like to thank this Committee for 
its commitment to the DHS transportation security mission.
                    addressing immediate challenges
    When I took office on July 4, 2015, the disturbing results of 
covert testing of passenger screening operations conducted by the OIG 
required immediate attention. Upon learning of these results, Secretary 
Johnson directed TSA to implement a series of steps constituting a 10-
point plan to address the issues raised by the covert testing. These 
included steps to ensure leadership accountability, improve alarm 
resolution, increase effectiveness and deterrence, increase threat 
testing to sharpen officer performance, strengthen operating procedures 
and technology, and enhance training.
    All of the actions directed in the Secretary's 10-point plan are 
currently underway or have been completed.
    As Secretary Johnson has stated, we must continually and 
comprehensively evaluate and re-evaluate what is best for aviation 
security. To ensure that we do not repeat past failures, determining 
root causes of the problems has been our utmost concern. We have 
concluded that strong drivers of the problem included leadership's 
focus on efficiency, environmental influences that created stress in 
checkpoint operations, and gaps in system design and processes. A 
disproportionate focus on efficiency and speed in screening operations 
rather than security effectiveness powerfully influenced organizational 
culture and officer performance. As a result, there was significant 
pressure to clear passengers quickly at the risk of not resolving 
alarms properly. Our analysis also revealed that our screeners did not 
fully understand the capabilities and limitations of the equipment they 
were using, and several procedures were inadequate to resolve alarms. 
We have addressed this by continuing the mission essentials training 
initiated in fiscal year 2016 so that our TSOs can more effectively use 
their equipment as threats evolve.
    Systematic solutions to these challenges require a number of steps: 
a renewed focus on TSA's security mission; revised procedures; 
investments in technology; realistic and standardized training; a new 
balance between effectiveness and efficiency; and support for our 
frontline officers. We must also continue to partner with airlines, 
airport operators, and the trade and travel industry to reduce the 
stress on checkpoints. Further, we must right-size and appropriately 
resource TSA and halt further reductions in officer staffing.
    We have refocused TSA on its primary mission, re-trained our entire 
workforce, corrected certain processes and procedures, improved our 
technology, and analyzed systemic issues. I am confident that we have 
corrected the immediate problems revealed by the covert testing. I am 
also confident that TSA is able to deter, detect, and disrupt threats 
against our aviation system.
    We have renewed our focus on the fundamentals of security by asking 
our officers and leaders to strike a new balance between security 
effectiveness and line efficiency while also diligently performing 
appropriate resolution procedures. Moreover, we have directed our 
managers and supervisors to support our officers in performing their 
difficult mission. Moving forward, we are guided by a principled 
approach, with specific projects already underway to ensure we achieve 
our mission goals.
    We are in the process of ensuring our focus on security 
effectiveness is well-defined and applied across the entire workforce. 
We are aligning TSA around this renewed focus on security 
effectiveness. From late July to early October 2015, we provided new 
and enhanced training for every officer and leader in our screening 
workforce, more than 42,000 in total. We have followed the initial 
effort with a range of initiatives to convey these priorities to 
leaders and officers, including a statement of the Administrator's 
Intent, the National Training Plan, and our workforce messaging.
    Refocusing on threat mitigation and improving TSO awareness and 
knowledge of threats will provide a new and acute mission focus. We are 
emphasizing the value of discipline, competence, and professionalism in 
resolving every alarm. From my field visits, I can report that our 
officers are hearing, understanding, and applying this new approach.
    TSA will continue to partner with the airlines, airport operators, 
and the trade and travel industry to identify solutions that can reduce 
the stress on the checkpoint, and we must right-size and resource TSA 
appropriately.
                       environment and objectives
    Our operating environment presents broad national security 
challenges that require highly effective security measures now and in 
the future. We will certainly face new challenges as our adversaries 
continue to evolve their means to attack. Over the next several years, 
estimates indicate adversaries will likely use variants of previously 
seen tactics, employing improvised explosive devices or firearms, and 
could even resort to ground based or inflight attacks.
    Our national strategy for combating terrorism sets our objective as 
stopping terrorist groups, hostile nation-states, and criminals before 
they can threaten or engage in attacks against the United States and 
its international partners, and TSA's aviation security mission is part 
of DHS's contribution to achieving this objective.
                          tsa risk methodology
    The current environment requires that TSA employ an intelligence-
driven, risk-based approach to secure U.S. transportation systems. 
Risk-based security strives to deter, detect, and disrupt attacks on 
the Nation's transportation systems and critical transportation 
infrastructure, while facilitating the movement of legitimate travel 
and commerce. The vast majority of people, goods and services moving 
through our transportation systems are legitimate and pose minimal 
risk. Thus, appropriately managing risk is essential in all areas of 
security responsibility. To do this, we must understand intelligence, 
as it drives our comprehension and assessment of that risk. As we make 
decisions on policy, operations, and countermeasures across TSA, we 
will apply risk-based methods to use our resources in ways that 
minimize risk and ensure system resiliency. We cannot do this alone; we 
must work closely with stakeholders in aviation, rail, transit, 
highway, and pipeline sectors, as well as our partners in the law 
enforcement and intelligence community.
    To support our risk-based approach, it is critical to continue to 
grow the population of fully vetted travelers. At the same time, TSA 
will continue to apply appropriate measures to address known threats, 
unknown threats, and low risk or trusted populations.
                 securing the national aviation domain
    To protect the aviation domain, our strategy nests with the 
National Strategy for Aviation Security, forming the foundation of 
TSA's mission. The strategy sets three national objectives:
  --First, the Nation must use the full range of its assets and 
        capabilities to prevent the aviation sector from being 
        exploited by terrorist groups, hostile nation-states, and 
        criminals to commit acts against the United States, and its 
        people, infrastructure, and other interests;
  --Second, the Nation must ensure the safe and efficient use of the 
        Air Domain;
  --Third, the Nation must continue to facilitate travel and commerce.
    TSA is committed to advancing the following strategic initiatives:
Maintain a Strategic, Intelligence-Driven Focus That Allows TSA To 
        Continuously Adapt Counterterrorism and Security Operations to 
        a Persistent, Evolving Threat
    We will employ risk-based operations tailored to each environment 
and transportation mode and will leverage intelligence, technology, the 
experience of our frontline operators and our private sector and 
international partners to ensure we employ effective and constantly 
evolving systems and capabilities.
    Proper application of a risk-based approach requires strong cross-
modal domain awareness. TSA must integrate surveillance data, all-
source intelligence, law enforcement information, and relevant open-
source data from public and private sectors to accomplish this 
objective. We will pay particular attention to the insider threat. In 
addition, we will strengthen our capability to conduct deliberate and 
crisis action operational planning, adjusting to new threats based on 
mission analysis, intelligence-driven testing of existing systems, and 
application of proven best practices and principles in the conduct of 
operations.
    Employing historically proven practices and principles enhances 
consistency and performance of operations. Common tasks for mission 
success in screening, inspections, special mission coverage, and other 
operations should be practiced in realistic conditions and rehearsed 
frequently under the supervision of qualified and trained supervisors 
or subject matter experts. Frequent rehearsals reinforce tactics, 
muscle memory, and sustain sharpness of perishable skills.
Invest in Our Workforce To Ensure It Is Mission-Ready, Expertly 
        Trained, Deliberately Developed, and Led by Mission-Focused and 
        Value-Based Leaders
    The single greatest strength of TSA is its committed, professional 
workforce. We must continue to recruit and retain highly capable 
individuals whose talents and acuities are uniquely tailored to our 
operating environments. Of particular value are experienced 
specialists--such as explosives experts, air marshals, and canine 
handlers--whose capabilities are invaluable to our mission success. For 
them and for all our employees, we must invest in training and provide 
a career path for growth and development.
    I am committed to creating an environment where employees and 
leaders can develop, employees have the tools to be successful, and the 
workforce is motivated by TSA's mission, vision, and strategic 
imperatives. To provide the most effective transportation security, the 
workforce must be consistently learning and improving.I will strive to 
ensure that each of us at TSA headquarters serves and supports all of 
the officers, inspectors, marshals, employees, and private sector 
partners who are on the front lines each and every day and in whom we 
entrust so much.
    My expectations include a strong emphasis on values, performance, 
customer service, and accountability. The traveling public expects 
efficient and effective screening and to be treated with dignity and 
respect, and we must ingrain these principles in agency culture by 
continually reinforcing this message of dignity and respect in training 
for our frontline workforce and management alike. I am confident each 
of the men and women at TSA will achieve my expectations.
    The TSA Academy, established at FLETC Glynco in January 2016, 
offers all new TSO hires a common basic training program and an 
environment to set foundational culture for TSA. Moreover, this 
investment will serve to improve performance and morale, foster an 
environment of growth and development, and develop future leaders.
Pursue Advanced Capabilities Through Continuous Innovation and 
        Adaptation To Ensure Our Agency Deters, Detects, and Disrupts 
        the Adversaries of the United States
    Central to TSA's mission is deterring a rapidly evolving global 
terror threat, with persistent adversaries who adapt their methods and 
plans for attack. Given this dynamic threat landscape, we must employ a 
strategic, systems-focused approach to ensure we evolve our ability to 
detect and disrupt the latest threat streams. As our adversaries adapt, 
so must we.
    We will continue to invest in national aviation intelligence 
systems, transportation sector vetting processes, enhanced explosives 
detection equipment and improved checkpoint technologies. We will 
continue to train and develop our officers on technological and 
procedural limitations to enhance system knowledge and improve the 
human-machine interface.
    We will make a concerted effort to strategically develop and 
sustain a strong partnership with the homeland security enterprise 
industrial base and work with them to deliberately develop and validate 
capabilities. Every effort will be made to enhance the array of TSA's 
security capabilities to ensure an increased likelihood of exposure and 
experience to the traveling public. In the aviation sector, we will 
pursue a system design that identifies a mission essential level of 
capability that ensures deterrence as well as effective detection and 
disruption of items on the prohibited items list.
    The success of our core aviation security mission requires a 
continuous cycle of operational evolution. We will work to develop a 
system focused on identifying and addressing existing vulnerabilities. 
The global transportation threat requires TSA to employ a systems-of-
systems strategy that will enable us to stay proactively informed and 
connected to our industry partners.
    To field and sustain an integrated requirements and acquisition 
capability, I am committed to creating an efficient, effective, and 
dynamic resource planning/deployment process for our agency. TSA is 
focusing on building an acquisition strategy designed to counter 
evolving threats while concentrating on prioritizing advanced 
capabilities that are cutting edge and adaptive.
                         imperatives for change
    Our critical examination of our screening operations also gave us 
valuable insight into imperatives for change--how TSA must evolve to 
meet the security and customer service challenges ahead.
    What do we do next? If we were rebuilding TSA from scratch today, 
would we do everything the same, or is there a better way, given not 
only the evolution of the threats we face but also the tremendous pace 
at which the aviation industry is growing? Last year alone, passenger 
growth was approximately four percent, nearly twice as much as 
anticipated.
    We have no choice but to explore different and innovative ways of 
doing business, of delivering the safety and security that is crucial 
to the operation of our transportation system. We have reached a 
critical turning point in TSA, both in terms of addressing the problems 
we have encountered and to begin our investment in a more strategic 
approach to securing the transportation sector.
                        tsa and counterterrorism
    One of my key objectives is to continue to position TSA as a 
counterterrorism organization. In pursuing this objective, we have met 
with key partners from the Intelligence Community and have repeatedly 
met with officials from a number of our industry partners including 
each of the major U.S. airlines, cargo carriers, and the key aviation 
and transportation sector associations. The transportation security 
system we are moving toward will require a collaborative, cooperative 
effort among government and industry partners.
    We have met with our counterparts in other countries for thorough 
discussions on aviation, surface, and rail security from a global 
perspective. TSA maintains a strong relationship with the 
transportation stakeholders in other countries, and a significant part 
of our engagement has dealt with their concerns, priorities, and 
opportunities to pursue further collaboration.
                         risk-based assessment
    Over the last 4 years, we have made a significant shift to risk-
based security procedures. On January 12, 2016, TSA reached 2 million 
total enrollments for the TSA PreCheck Application Program. More than 6 
million travelers are enrolled in a DHS trusted traveler program, such 
as Customs and Border Protection's Global Entry, and are eligible for 
TSA PreCheck. TSA is working aggressively to expand the number of 
enrolled travelers, with the goal over the next 3 years of enrolling 25 
million travelers in the TSA PreCheck Application Program or a DHS 
trusted traveler program. This is a four-fold increase from today. This 
is an important security component for TSA as it shifts to a model 
where ``low-risk'' individuals are either directly enrolled or part of 
an eligible low-risk population that is known to TSA.
    Even more promising in terms of risk-based security procedures is 
the work we are doing on developing the Dynamic Aviation Risk 
Management Solution, or DARMS. The objective of DARMS is to unify, 
quantify, and integrate information across the aviation sector in order 
to comprehensively assess risk on an individual, on a per flight basis. 
DARMS will integrate information on passengers, checked baggage and 
cargo, aircraft operators and airports and airport perimeters.
    This kind of system-side application of risk-based principles will 
allow greater screening segmentation and a more efficient, effective 
and agile reallocation of resources.
    Early this year, TSA will finish the initial proof of concept of 
DARMS for passenger screening. Within the next 1 to 3 years we plan to 
finish the design and create a prototype that incorporates the complete 
aviation security ecosystem and which tests and evaluates the approach 
at a few select airports. And within 4 to 10 years, we plan to 
gradually introduce DARMS at airports. We look forward to sharing these 
plans in more detail with Congress.
    We have actively worked with industry throughout the process to 
leverage their knowledge and expertise, solicit their feedback and 
refine the approach. TSA is committed to continuing that collaboration 
and strengthening those partnerships.
                   training and mission capabilities
    As mentioned previously, and thanks to help from Congress in our 
appropriations last year, we started conducting new hire training for 
TSOs at the TSA Academy. Previously this training was decentralized and 
conducted at individual airports.
    The TSA Academy connects TSA's frontline workforce with other DHS 
partners and provides a consistent training experience that improves 
performance and professionalizes the officer workforce. Delivered in a 
dedicated, high-quality environment conducive to realistic, scenario-
based learning, the Academy will help instill a common culture and 
esprit de corps at the beginning of an officer's career, and enable us 
to instill core values and raise performance standards across the 
screening workforce.
    The dividends are already apparent. Training in this manner ties 
the individual to mission. It ties the employee to engage in a larger 
organization with a critical mission--to something bigger than 
themselves--and it ties them to a sense of what the oath they took to 
protect this country really means.
                 technology and acquisition innovation
    We also are rethinking how we invest in technology to better ensure 
that our investments are driven by threat and not by lifecycle.
    While we continue to improve detection capabilities on our existing 
equipment, our investment in new technologies must exceed the speed of 
the enemies' ability to evolve. Our recently published Strategic Five-
Year Technology Investment Plan for Aviation Security is an example of 
thoughtful planning toward these ends. Interaction with industry in 
developing the report was insightful, and we are optimistic that this 
increased collaboration will prove beneficial.
    The Defense Acquisition University is conducted an independent 
analysis of our acquisition management processes, programs, and 
organizations to address this challenge, which will inform future 
adaptations to our acquisition governance. This effort is complete and 
TSA is reviewing and developing an implementation strategy.
    In addition, TSA is partnering with the DHS Science and Technology 
Directorate (S&T) to further align research and development (R&D) 
projects to acquisition needs. Improving this critical process will 
better enable us to identify capability gaps and to coordinate R&D to 
close those gaps.
    The Transportation Security Acquisition Reform Act (Public Law 113-
245), signed into law in 2014, has helped us by mandating increased 
transparency and the use of best practices for security technology 
acquisitions. The law also allows TSA to advance small business 
contracting goals and expand our partnership with industry and aviation 
security stakeholders.
    TSA is also partnering with S&T and several private entities to 
develop the potential future of passenger screening models. Future 
private-public collaboration in curb-to-gate security systems may offer 
the leap forward in aviation security that can absorb system growth, 
increase effectiveness, provide operational resiliency, and improve the 
passenger experience.
                  staffing models and rightsizing tsa
    Rightsizing our staffing, training, and equipment needs are 
critically vital investments, and sets a firm foundation for the 
continuing evolution of TSA. I appreciated the Committee's support and 
funding for each of these important priorities as part of the Fiscal 
Year 2016 Consolidated Appropriations Act (Public Law 114-113)--and 
request continued support in our fiscal year 2017 budget. As traveler 
traffic volume grows, it is crucial we re-examine our assumptions and 
models for future fiscal years, which is underway now.
    We are a smaller organization than we were 4 years ago, with about 
6,000 fewer TSOs in the screening workforce. The fact is we cannot 
build a workforce indefinitely. We have a limited geographic footprint 
in every airport--some large, some small. Only continuous innovation at 
the checkpoint will meet the challenges posed by passenger volume 
growth. Eventually, we will reach capacity, and in some places we 
already exceed capacity during peak travel periods.
                         tsa senior leadership
    Good leadership requires good people who are committed to the 
mission. Last September, I convened a meeting of TSA's executive 
leadership. The meeting allowed me to lay out my vision for evolving 
TSA into the counterterrorism organization our mission demands. The 
dialogue at this 2-day event was spirited, and we wrapped up with a 
work list of items that will move our agency forward.
    In addition to the range of projects supporting screening 
operations improvements, we are examining discipline, empowerment of 
frontline leaders, expanding information sharing, improving training 
and exploring ways of consolidating operations and support activities 
in TSA headquarters. We have also changed the metrics that leadership 
collects and uses to focus more on effectiveness than efficiency at the 
checkpoint.
    In addition to the standardized training for our frontline 
employees, I am also committed to continued development of our agency's 
leaders. I have begun a leadership speaker's series for senior 
leadership that covers topics such as ethical leadership, leadership in 
action, and leading effective operations. We will be sending senior 
leaders to leadership courses to strengthen their skills. Additionally, 
I have reformed guidelines regarding SES special act awards.
                         administrator's intent
    Mission success is built on a shared understanding of objectives, 
unity of purpose, and alignment of values and principles. In January 
2016, I published my Administrator's Intent, an effort to articulate 
those objectives, the approach we will pursue in accomplishing our 
essential counterterrorism mission, and the values and principles that 
define TSA.
    Central to our success is a commitment to a common set of values. 
We will operate with the core values that define us as an agency--
integrity, innovation, and team spirit. Building on these, my intent 
outlines the principles we care about as an agency. Simply stated: we 
will focus on mission, invest in people, and commit to excellence.
  --Focus on Mission.--Since my first day at TSA, I have stressed the 
        importance of putting our mission first. Focusing on our 
        mission helps us prioritize our resources and operations to 
        meet the threat. It also informs how we must invest in our 
        workforce to achieve mission success.
  --Invest in People.--Our culture, effectiveness, and mission 
        readiness are a direct result of consistent and career-long 
        investment in people and set the foundation for agency success. 
        Our people are our most important resource, and I am committed 
        to ensuring they have the tools and resources to succeed. 
        Value-based leadership, a foundation of training, recruiting 
        and retaining talent, and appropriate recognition are core 
        elements of our approach.
  --Commit to Excellence.--Our standard is excellence in all mission 
        areas. We operate in a global environment where the threat 
        remains persistent and evolving. As we pursue our 
        counterterrorism mission, we will relentlessly pursue 
        excellence, through a culture of constant improvement, 
        organizational adaptation, and a disciplined pursuit of 
        professionalism.
    Of the many positive impressions from my early tenure as TSA 
Administrator, the most profound is the one I have gleaned from our 
workforce. They are incredibly patriotic and passionate about our 
counterterrorism mission and will perform well if properly trained, 
equipped and led.
    Many profound and important tasks lay ahead for TSA, and we are 
committed to leading this agency guided by these values and principles. 
It is a noble mission for which the men and women of TSA are prepared. 
Thank you for the opportunity to appear before you today. I look 
forward to your questions.

                         FEE INCREASE PROPOSAL

    Senator Hoeven. Thank you, Administrator. We will start now 
with 5-minute rounds of questions.
    My first question relates to the budget and the funding. 
The first challenge we have is finding about $900 million, 
which is actually included in the budget as part of the 
reinstatement of the air carrier fee and then an increase in 
the aviation passenger security fee.
    Together, that is over $900 million, $909 million, so that 
creates a big challenge for us, particularly because I do not 
believe that Congress is going to be willing to reinstate or 
increase these fees.
    And, if you factor other proposals in the President's 
budget, we have to find about $1.5 billion, although we do not 
have our 302B yet, so that number may be less. We hope it will 
be less, but we are going to have to find some savings here.
    What can we do in TSA in that regard, if we do not have 
those fees?
    Mr. Neffenger. It would be challenging for us to find $900 
million within the TSA budget.
    Senator Hoeven. Yes, and that is not going to be the case. 
But what do you think we can do and where?
    Mr. Neffenger. Well, I do think it is appropriate to ask 
the people who benefit directly from the services that are 
provided, the security services provided, to contribute to 
that. And of course, they currently do. The passenger service 
fee is a modest increase of a dollar per trip, capping at $2 
per roundtrip. And it does ask for reinstatement of the airline 
carrier fee, the airline service fee that was in existence 
until 2014.
    Absent that, we will have to work with the committee to 
identify potential other sources of funding. The requirement 
still remains for the funding in the budget.
    Senator Hoeven. Well, I think you are going to need to look 
at areas where we can find some savings. Again, this is not 
going to all come out of the TSA budget, and we hope to do 
better on the 302B than we have in the allocation of the 
President's budget.
    However, we are going to have to find some savings. So we 
are going to need your input as to where in TSA you would do 
some prioritization.

                     DHS INSPECTOR GENERAL FINDINGS

    The second question I have relates to the progress on the 
Inspector General's findings. I know you have been very 
diligent in your efforts in regard to those findings. To the 
extent you can, in a nonconfidential setting, talk about 
progress in addressing those Inspector General findings.
    Mr. Neffenger. As you know, we did submit the classified 
report to the committee, and I think your staff has had a 
chance to look through that. That is a very comprehensive 
report on the findings.
    We also provided that report to the Inspector General, and 
I am pleased to report that he has concurred with our approach. 
He believes that we are on the right track. I have had a number 
of conversations with the Inspector General. I believe that we 
are moving forward in a way that is acceptable to him. We are 
looking forward to closing out those items as we move into the 
future. We are generally in a resolved state on all of the 
Inspector General's recommendations, but they are still open 
because, like a good Inspector General, he is going to verify 
that we have, in fact, put in place the systems that we claim 
to be putting into place. But I think we are on a very good 
trajectory with the Inspector General.
    More importantly, I think that we are really moving forward 
on correcting the problems identified by the Inspector General 
last year.
    Senator Hoeven. It is a 10-point plan. Do you feel you are 
really covering all 10 points and you are making good progress 
on them?
    Mr. Neffenger. Yes. Actually, the 10-point plan is the plan 
that we developed with the Secretary. Our response actually is 
much more comprehensive than that. We have gathered much of 
what we are doing under 10 key points to report to Secretary 
Johnson. I see him on a biweekly basis to report on our 
progress.
    But the plan is actually much more extensive than 10 
points. It is just that these are 10 categories of actions that 
we captured, but there are scores of actions under each 
category.

  CENTRALIZED TRAINING AT THE FEDERAL LAW ENFORCEMENT TRAINING CENTER

    Senator Hoeven. One of the things you are doing is making 
sure that everybody goes through training at Glynco, Georgia, 
with the idea of both standardizing the training and making 
sure you maintain a certain quality standard and consistency 
throughout the organization. Has that been helpful? How is that 
progressing?
    Mr. Neffenger. Well, we started that just in January this 
year, so it is still a relatively new program. I want to thank 
the committee for giving us the opportunity to do that.
    I was surprised to find that TSA did not have a basic 
training program, if you will, that brought people together. So 
for the first time in TSA's history, we actually have a basic 
training course for all of our new transportation security 
hires.
    And this was a complete rewrite of the curricula, so it is 
a fundamental, top-to-bottom overhaul of that. So this is true 
hands-on, scenario-based training in a real-world environment 
under real-world conditions in a consistent classroom 
environment in what I consider to be a world-class training 
institution, the Federal Law Enforcement Training Center.
    So initial results, initial measures seem to indicate that 
some of what we expected to see really is happening: an esprit 
de corps of a very high level, a sense of commitment to a 
larger purpose than simply a job, an understanding of what it 
means to be part of the homeland security enterprise and have a 
role as important as this.
    We have to measure that over time. We are moving about 192 
students a week through there now, so it is a 2-week course. 
But every week, we are graduating a 2-week class, starting this 
month. We are going to follow each of this cohorts. We do an 
initial assessment--how well did they do, what is the 
graduation rate, and so forth. We get their input, and we also 
get the instructor's input. And over time, we will track them 
to see if we are actually seeing improved performance.
    It is a little early for us to know that right now, but I 
suspect we will see improved performance. Then we are going to 
go to their supervisors in the field to see if they are seeing 
a fundamental different quality going forward. And then we will 
use those measures to roll back into the training, if we see 
that there are improvements that need to be made.
    But I will tell you that it is inspirational to go there. I 
spent some time down there already. I would encourage any 
member of this committee who wants to take a visit or speak to 
one of the graduating classes, it is a standing invitation.
    Senator Hoeven. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you.

                         FEE INCREASE PROPOSAL

    Administrator, I know that your response to Chairman 
Hoeven's question about what would be the impact if the $909 
million in fees is not enacted is that it would have a dramatic 
impact on the agency. While I agree, it is probably not likely 
to all come out of TSA but specifically, if it were all to come 
out of TSA, and you had to reduce the TSO work force to 
accommodate that $909 million reduction, how many TSO employees 
would be lost?
    Mr. Neffenger. That represents approximately 13,000 full-
time employees. That would be a significant hit.
    Senator Shaheen. About 30 percent?
    Mr. Neffenger. That would be about 30 percent of the work 
force, yes, ma'am.
    Senator Shaheen. So it would be a significant hit.
    Mr. Neffenger. It would. I think it would make it very 
challenging to perform the mission on a daily basis.
    Senator Shaheen. While I know that we have to deal with 
this issue, I just want to point out that in the 2016 DHS 
Appropriations Act, the Department, in submitting a budget that 
assumes revenue from fees, was also supposed to identify 
spending reductions that would occur if the proposal was not 
enacted.
    Has that been done as part of your budget submission?
    Mr. Neffenger. We have not done specific spending 
reductions. We are looking at our budget right now to 
determine, if we had to find that money, how would we 
distribute it across our budget. I would just tell you it would 
be very challenging to do so, given that two-thirds of our 
budget is going directly toward paying our people, covers the 
costs of our people.
    Senator Shaheen. Well, I think the committee is probably 
very interested in continuing to work with you as we look at 
this issue.

                           TSA STAFFING NEEDS

    Over the last 4 years, TSA screening work force has been 
reduced by about 6,000. Part of that was made possible by the 
managed inclusion initiative that has been phased out. So can 
you talk about, given that you do not expect managed inclusion 
to continue, how you plan to continue to provide the work force 
that we are going to need to deal with the threats from ISIS 
and from the requirements to keep the agency fully staffed?
    Mr. Neffenger. Thank you for the question, Senator. I think 
one of the things I was concerned about when I came onboard and 
we were looking at the results of the Inspector General 
testing, I knew that we would have to discontinue the managed 
inclusion, which, as you know, is the practice of taking people 
from the standard lane and randomly assigning them into the 
PreCheck or expedited screening lanes.
    I personally did not think that was sustainable or 
justifiable. That conformed with what the Inspector General 
found. In fact, we found that we were adding more risk into the 
system than we should.
    That said, that meant that we moved about 10 percent of the 
daily traveling population back into the standard lanes. I knew 
that would put a lot of pressure on standard lanes, so I 
appreciate the fact that I was able to halt any further 
reduction in my screening work force.
    Concurrent with that, though, we are doing a hard look at 
our staffing needs going forward. Given the growth that we are 
seeing in the industry and the projected growth in the travel 
population in the coming year, if it holds as projected, then 
my suspicion is we will have to make some adjustments to our 
staffing model.
    I owe that to you and to the committee. I should be seeing 
the initial results of that within the next few weeks from my 
staff, and then I need to come forward and build that into my 
budget request going forward.
    I want to make sure we stay responsive to the security 
needs. I think there is also an opportunity to make some 
adjustments to the way in which we conduct screening today. 
There are some promising new technologies that are not just on 
the horizon but available now that I think we could put into 
place.
    But I do not know that we have staffing right. I owe you 
that answer. That answer is owed to me, and I owe that answer 
to you, following that. I hope to get that within the coming 
weeks, and then take a hard look at what it really takes in the 
face of the current threat and in the face of the current 
travel volume to ensure that we are doing our job in the best 
way possible.
    Senator Shaheen. We talked about this when we had a chance 
to meet, but will you also address full-time versus part-time 
as part of that?
    Mr. Neffenger. We will. You have to get the mix right. 
There is a certain number of part-time workers that are 
appropriate because you have a lot of surge staffing and peak 
staffing that you need to have. But I do not think I have the 
mix right, right now. I would like to see a better balance 
between full-time and part-time. I think that will address some 
of our attrition rates that we have seen. If you can hire more 
full-time employees, you can reduce the attrition and turnover.
    Our surveys show us that a lot of the attrition is because 
people who would like to be full-time because they need the 
money find full-time jobs. If they cannot find a full-time job 
with this, they are going to have to find it someplace else.
    Senator Shaheen [presiding]. Thank you.
    Senator Cassidy.
    Senator Cassidy. A couple things. Just so I understand, you 
mentioned that your risk-based security initiatives, such as 
the expansion of the TSA PreCheck, allow you to concentrate 
your resources looking for threat among those who are not 
PreCheck. Is that a fair statement?
    Mr. Neffenger. Yes, sir. That is a fair statement.
    Senator Cassidy. Okay. Now, I understand you recently 
selected a potential private sector provider for something 
called third-party PreCheck to increase the participation 
overall. Right now I fly so much on PreCheck that I have my 
daughter with me in PreCheck, my wife in PreCheck. I love 
PreCheck. So what is the status of this third-party project and 
what are the next steps?
    Mr. Neffenger. As you know, Senator, we put out a request 
for proposal (RFP). We currently have a single vendor that 
provides enrollment services. Those enrollment services are at 
specific airports, not all airports, but at most of the major 
airports.
    The goal is to find ways to increase enrollment opportunity 
to put it out more in the retail environment, so that you do 
not necessarily have to find yourself at an airport with the 
right documentation in your hand. So this past year, we put out 
a request for proposal that would allow a number of potential 
third-party vendors to provide enrollment services and increase 
the opportunity for that enrollment.
    The current status is the RFP closed. We have bids in right 
now. We are evaluating those bid proposals at the moment. If 
all goes well, we should be able to award a contract by mid- to 
late-summer, and begin to see third-party enrollments from 
these additional vendors.
    Senator Cassidy. So I took my daughter to get hers. We went 
to a little sort of strip mall type of thing, little office 
building in a strip mall. I did not think it was, but you're 
saying that is actually run now by TSA?
    Mr. Neffenger. It is actually run by a vendor.
    Senator Cassidy. So you actually already implemented this, 
even though the RFP has not been awarded?
    Mr. Neffenger. We have one contract that was awarded back 
when PreCheck was first established. There is a single vendor 
that provides enrollment services.
    The difference with this request for proposal was to look 
for more creative or innovative ways, if you will. We thought 
the private sector may have a better understanding of how best 
to market and develop the enrollment capabilities.
    Senator Cassidy. So it is not just the person standing 
behind the screen. It is also the marketing thereof?
    Mr. Neffenger. Yes, sir. It is.

                           USE OF BIOMETRICS

    Senator Cassidy. You also have $53 million in for biometric 
capture, iris and facial recognition. That brings to mind 
Minority Report, the movie.
    So would this be something that would, as I am standing in 
line, be looking at my face, comparing it to a database of 
known or suspected you-should-not-fly people? Or is this 
something that when I go for my TSA PreCheck, they take my 
picture, they do retinal scan? You see the difference?
    Mr. Neffenger. It is more the latter, Senator. The idea 
would be, clearly, you want permission to do this in the 
screening environment, just like we certainly encourage people 
to enroll in Trusted Traveler Programs like Global Entry and 
PreCheck. You have to be willing to provide the information. 
This would be along that same vein, if you are willing to 
provide that information.
    What it would allow us to do potentially in the future is 
to dramatically improve the efficiency of the system, moving 
you through more effectively while at the same time tie you 
more directly to your identity.
    Senator Cassidy. Now, it still seems like PreCheck, I guess 
I am trying to understand the degree this would add to the 
PreCheck phenomenon. I do not see people pulled aside when they 
are in PreCheck. But again, the facial and iris screen would be 
for those who voluntarily enroll in PreCheck, not for those 
standing in line who have not enrolled in PreCheck?
    Mr. Neffenger. That is correct. What it would do is just 
improve the processing. Currently, you walk up to an individual 
and you provide your boarding pass and they check it. This 
would just speed that process.

                                BIOWATCH

    Senator Cassidy. You have $82 million for the BioWatch 
program for the detection and early warning of intentional 
release of aerosolized biologic agents. How would that work? I 
mean, if somebody has a biologic agent, and it is in some sort 
of hairspray bottle, I guess the nature of this detection 
system, knowing that it is being developed, it might be 
classified, but the degree to which you can tell us what it is, 
can you tell us what it is?
    Mr. Neffenger. Well, I cannot get into a lot of details 
with respect to how it works. What I will tell you is that we 
are always looking at the evolving threat environment and what 
we see as potential new sources of harm to the system. So what 
this looks at is, first of all, how extensive or how much of a 
concern is it? More importantly, if it is identified as a 
concern, you identify particular types of bioagents as a 
concern, how easily or how effectively could you determine what 
they are and could you detect them? So it is really part of the 
research and development testing that you want to do to 
determine whether there are additional concerns that we need to 
be aware of that might find their way into the transportation 
system.
    Senator Cassidy. As in whether or not somebody could 
somehow--it is an interesting concept. I am not sure I follow 
it.
    Senator Shaheen. Let me just point out that BioWatch is not 
a TSA program. It is run by Health Affairs within DHS. And I 
would say it is more likely to be in a man's shaving cream than 
a woman's hairspray, but I just want to make sure that we are 
not being sexist in our assumptions about aerosols.
    Senator Cassidy. That said, it is in this budget, and so 
the $82 million for the BioWatch, is that just a pass-through 
from your agency to the Department of Health and Human Services 
(HHS)?
    Mr. Neffenger. It is our participation.
    And thank you, Senator, for clarifying. It is our 
participation in a department-wide look at these agents. We are 
still fundamentally focused on what we believe to be the range 
of devices and types of implements that we have been seeing 
over the past few years. But we want to be aware of what they 
are doing, and this is our piece of participating in that, to 
ensure that we are not inadvertently missing a concern that 
might be out there.
    Senator Cassidy. And for the record, I meant no slight 
toward women using hairspray.
    Senator Shaheen. Thank you. I appreciate the clarification.
    Senator Tester.

                      ADVANCED IMAGING TECHNOLOGY

    Senator Tester. Thank you. I appreciate you being here, 
Administrator Neffenger, today.
    I come from a State of 1 million people. We get 12 million 
folks who come and $4 billion in our State every year. So many 
of them come by air. It is a huge part of our economy, so I 
appreciate the role the TSA plays in keeping us safe.
    I guess my question is, how important are full-body 
scanners? I mean, I see these in the airports and see the TSA 
PreCheck, and I go through them. But how important are the 
full-body scanners?
    Mr. Neffenger. I consider it one of the most effective 
means of determining and detecting whether somebody is moving a 
nonmetallic device through the system, so I think they are very 
important.
    Senator Tester. Perfect. So we have two pretty busy 
airports in Helena and Great Falls. Not as busy as O'Hare or 
Logan or Dulles, by any stretch of the imagination. But they 
are pretty still pretty damn busy, and they are set up to have 
these full-body scanners. Why don't we have them there?
    Mr. Neffenger. Some of it is a funding issue, I will be 
honest with you. It is a prioritization. We start where the 
greatest volume of people are going as well as where we 
consider the greatest threat seems to be.
    In my personal opinion, I would like to see them across the 
entire system.
    Senator Tester. I think we need them. Quite frankly, we are 
talking about a budget here that you are looking at saving 
somewhere between a dollar and $1.5 billion, and we cannot get 
full-body scanners. We have some issues, because, quite 
frankly, I have gone nearly 2 million miles since I took this 
job, and my neighbors need to fly safely, too. Just because 
they live in a rural State like Montana does not mean we should 
not have scanners.

                         FEE INCREASE PROPOSAL

    So let me ask you, this dollar roundtrip charge, is this 
supported by the airlines?
    Mr. Neffenger. I do not believe it is, no, sir.
    Senator Tester. Okay. Do the airlines understand that after 

9/11, there was nobody flying? Do they understand that if we 
have an issue like this, it will have incredible--and nobody 
wants to see it--incredible economic impacts not only on 
airlines but across States like Montana that depend on $4 
billion from that?
    Mr. Neffenger. Senator, I believe that the people who 
benefit from the security services should contribute to that 
benefit.
    Senator Tester. I guess we will get the airline folks in my 
office and figure out why they do not. I do not like to pay any 
money either in taxes, but when you are getting direct 
benefits, it is important.
    But I am assuming that you need this money. Would that be 
correct?
    Mr. Neffenger. We do need the budget that we requested.
    Senator Tester. Would it also be correct to assume, for the 
folks on this panel, that a few years back we cut Embassy 
security and ended up with a horrible situation in a place 
called Benghazi, and we point the finger at everybody but 
ourselves. So we need to keep that in mind when we are talking 
about all the other security budgets around this country.

                        INTELLIGENCE OPERATIONS

    TSA continues to develop intelligence operations that 
increase information-sharing with outside stakeholders and 
agencies. Can you tell me what protocols are being put into 
place to make sure this information about every day, honest, 
law-abiding citizens is being protected from abuse?
    Mr. Neffenger. Yes, sir. I am not sure if you have a 
particular category of information, but if you look at the 
secure flight information, for example, the information that 
you enter when you enter your name and birthdate and travel 
itinerary into the system, then it tracks. And we use that 
information to determine whether or not you are on a terrorist 
database or the like.
    That is very tightly controlled access. As you know, that 
is owned by the intelligence community. There are tight 
controls over who may access that, and there are tracking 
controls over who accesses that.
    We do not share that personal data outside that system, 
outside of those few entities and agencies that are allowed to 
access that data. If we have a concern about an individual, 
there are other ways to move that information to the 
appropriate law enforcement agencies for action without giving 
them access to the database itself.
    Senator Tester. Okay, so you are confident that this 
information is being used by the people who need it and nobody 
else?
    Mr. Neffenger. Yes, sir. I am.

                      ADVANCED IMAGING TECHNOLOGY

    Senator Tester. Okay. I would pin you down on these full-
body scanners some more, but can you give me an idea on how 
many airports out there the TSA is in that do not have full-
body scanners?
    Mr. Neffenger. Senator, off the top my head, I do not have 
a number, but I will get that number for you.
    Senator Tester. Can you give me a percentage? Is it 10 
percent, 15 percent?
    Mr. Neffenger. I hesitate to make a guess right now because 
any time I guess, I am off.
    [The information follows:]
     advanced imaging technology: presence in federalized airports
    As of April 4, 2016, there are 234 federalized airports that do not 
have an Advanced Imaging Technology (AIT) unit. This equates to 
approximately 54 percent of the Nation's federalized airports. TSA 
deployed AITs at larger airports in order to maximize the number of 
passengers passing through the units, thereby achieving a greater risk 
reduction. As you know, the AIT system is useful in rapidly detecting 
non-metallic threats, which cannot be detected by a walkthrough metal 
detector. Airports with lower passenger volume employ alternative 
methods of detecting non-metallic threats.

    Senator Tester. I would just tell you, I think it is 
critically important. It is our job to make sure that the folks 
who are flying are kept safe in this country, and we do that 
job through you.
    When you put up a budget, I guarantee there is nobody on 
this panel who wants to see fat in the budget. We want to see 
that budget be lean and mean and do the job it is intended to 
do. If it does not do the job it is intended to do, we need to 
know about it directly.
    I would say the fact that we have a percentage of airports 
that do not have full-body scanners is a problem, just by what 
you said about the importance of detecting nonmetallic devices.
    So with that, Madam Ranking Member, I appreciate the 
opportunity.
    Thank you for your service.

                       IMPROVEMENTS TO TECHNOLOGY

    Senator Shaheen. Thank you very much.
    I would like to pick up on the questioning that I heard 
from my colleagues relative to the importance of technology as 
TSA is doing the job that is part of its mission. Obviously, 
technology was a factor in the Inspector General's report, and 
you mentioned the importance of technology in being more 
efficient at the agency.
    We know that right now there are a limited number of 
companies that supply the screening equipment to TSA and very 
few of those are small businesses. So what can TSA and DHS do 
that can get more companies interested in working on new 
technologies and doing a better job of providing the innovation 
that we are going to need in the future?
    Mr. Neffenger. Senator, thank you for the question. As you 
know, the last time I appeared before this committee, that is 
one of things that I said was of great concern to me. I would 
like to see much more competition in the marketplace, because 
it is such a challenging mission. It needs to be very cutting-
edge, and it needs to evolve faster than the threat is 
evolving. I think that there is capability out there that we 
just have not tapped into yet.
    So over the past few months, there are a couple things that 
I have done to try to understand how to do that better. The 
first thing we did was contract with the Defense Acquisition 
University to take a hard look at the way in which we are 
conducting our acquisition programs. My suspicion was that 
there were some things that we could do that could better 
incentivize people on the front end of an acquisition, better 
things we could do with respect to how we define our 
requirements, and then how we publicize those requirements and 
generate the research and development necessary.
    We just got that report, and they have made a number of 
recommendations, which I think can help us in that respect. So 
that is one aspect of how you into it.
    Second, I am tying myself much more closely to the 
Department's Science and Technology division, because I think 
that you have to find a way to seed research and development 
dollars into the front-end to even get people interested in 
participating. That is how you signal the kinds of concerns 
that you have as well as signal the kinds of input that you 
need.
    The last piece is with respect to the technology itself. I 
would like to see us move to a much more open architecture, and 
open systems. So first of all, look at the system in its 
entirety, instead of the boxes in the system. If you look at it 
as a system of individual components, then you can begin to 
think about how you could do that in an open way, meaning 
things like software, not proprietary systems. Just like on 
your PC, you can put lots of different kinds of software on it. 
You can even pick your own operating system. We need the 
ability to do that ourselves because then you have much more 
opportunity for people to compete.
    Hardware, the same thing. The hardware systems I would like 
to see opened up so that you have more opportunity for people 
to compete. That way, we will attract more of those small 
businesses where some of the real innovations is happening.
    So all of those are in big category ways that we are 
addressing it. There is a lot of detail behind each of those 
that I am more than happy to share with the committee and have 
staff come up and talk about.
    But I think we have some real opportunity to change that in 
the coming months in a way that could dramatically improve our 
ability to both field technology as well as get the stuff we 
need to do the job.
    Senator Shaheen. I really appreciate that. One of the other 
hats that I wear here is ranking member on the Small Business 
Committee. As you alluded to, most of the innovation is done 
from small businesses. It is not done by the large businesses. 
So in thinking about how we can get the more engaged on the 
needs of TSA I think is really important.
    Do you participate in the SBIR program?
    Mr. Neffenger. I am not sure I am familiar with the SBIR 
program.
    Senator Shaheen. It is Small Business Innovation Research 
program.
    Mr. Neffenger. Oh, yes, I am sorry. The one thing I am 
pleased to report is that we hit our small business 
participation targets this past year, so I am pleased with 
that. I would like to create some more stretch goals for us in 
the small business community. I am very pleased with the work 
that some of our staff have done to really increase 
participation in small businesses.
    But there are some of these structural things that we have 
to address before we can really open that up in a way that I 
think is appropriate.
    Senator Shaheen. Well, I think that will be very helpful 
and a very important. Certainly, I am sure that this 
subcommittee would be very interested in working with you on 
that.
    We have seen the SBIR program make a real difference for 
the Department of Defense, in terms of the innovation that they 
need to keep current. So I think this provides a real 
opportunity for TSA.
    Mr. Neffenger. Thank you. I look forward to bringing 
forward the results of some of this internal evaluation we have 
done, as well as what we are currently doing with small 
businesses. Certainly, we are open to learning from what the 
committee already understands about that as well. So I think 
there is real opportunity going forward.
    Senator Shaheen. Good. Thank you.
    Senator Cassidy.

                            RANDOM SCREENING

    Senator Cassidy. The last time I was here, Secretary 
Johnson was there. I was once at Reagan, and we were about to 
board and hand in our little tickets and be allowed onto the 
plane. Somebody pulled over somebody and went through her 
purse, and it was a random check.
    It was the only time I had ever seen that. It, actually, 
was not at every terminal at Reagan. It was only terminal A.
    Similarly, in some airports, they pull you out. They swab 
you to see if you have gunpowder or nitrogen on your hands, and 
other airports not.
    Now, clearly, if this was something generally recognized to 
be useful--for example, x-rays or body scans--it would be done 
more consistently. But it is only done at one terminal at one 
airport, or several terminals at another airport, but not all 
terminals at all airports.
    How do you assess the effectiveness of these different 
measures? Sometimes it seems quite random how you do your 
random screens.
    Mr. Neffenger. There is a certain random component to any--
--
    Senator Cassidy. I should not have phrased it that way 
because the fact that you are only doing the kind of, ``Okay, 
let me see your purse,'' in one terminal at one airport, that 
is not even random. That is isolated, I should say.
    Mr. Neffenger. It actually happens more frequently than 
that, so there is a certain level at which we conduct that. We 
do not publicize the numbers for that. It may appear as if it 
is only occurring in one place, but I can assure you that it is 
happening repeatedly throughout the airport environment and 
many airports around the Nation.
    There are a couple factors at play. One, there is a 
deterrent. There is a visible deterrence factor. And it is hard 
always to measure who did not do something because they saw 
you, but we know that there are strong deterrence factors 
associated with what people see happening.
    For example, if you have an explosive-sniffing dog 
working----
    Senator Cassidy. I totally get the dog.
    Mr. Neffenger. Right. You will see people turn around and 
walk away.
    Senator Cassidy. I am not sure I get kind of the random, 
where there are a hundred people in line, let's pull one person 
out. She may have been playing with fertilizer in her yard, but 
let's swab her. I would be interested to know like how many 
times that has turned out to be a positive, and when it was a 
positive, whether it was a true positive for someone who is 
trying to wreak havoc.
    Mr. Neffenger. There is a classified briefing we can 
provide that tells you exactly how that is structured, what we 
find, what results we have gotten as result of that, as well as 
how we measure the deterrence factor.
    I would be more than happy to provide that for you. I would 
prefer not to talk openly about how we do that.
    Senator Cassidy. I am okay with that.
    Mr. Neffenger. If you are willing to allow us to do that, 
then we can provide a classified briefing to the committee or 
to you directly.
    Senator Cassidy. I will. Just in general, there is a 
scientific sort of--because you are asking for a lot of money 
here. And when I go through the airport and I see something 
that seems like the tree in the forest, and it makes a 
difference whatsoever, and it is not even heard. I am thinking, 
we just spent money on that.
    Mr. Neffenger. Well, what I would tell you is, there is a 
sound and rational basis for why we do that. It is part of a 
larger system.
    There are a lot of elements in a security system. Some are 
fixed. Some are virtual. Some are random in their nature. And 
some are designed to be very visible in their deterrence. Some 
are designed to be invisible and in the background. That is one 
of those many measures that are in place to create uncertainty.
    The idea is to have an ongoing uncertainty as to whether or 
not something else might happen in the environment.

                          RISK-BASED SECURITY

    Senator Cassidy. Now, one of the consultants I read about 
your efforts said folks are, and I will paraphrase, so focused 
on the picayunish, they miss the great picture. So by looking 
for that pocketknife in the purse, they actually miss the fact 
that there is somebody over there who is sweating profusely and 
looks as if they are nervous.
    Now, I am paraphrasing, but that was kind of the intent of 
what they said.
    So to what degree do you move--and I know that you have 
moved to some degree--from a system that assumes that everyone 
is equal risk to more of a risk-based assessment. If before it 
was 100 percent, everybody is the same risk, and now what 
percent of it is, no, here is a group that we truly believe are 
not at risk but--you follow what I am saying.
    Mr. Neffenger. Currently, about 25 percent of the daily 
traveling population goes through expedited screening, through 
the PreCheck lanes. We would like to grow that to about 50 
percent.
    So that 25 percent gets relatively less screening, as you 
know, from your own experience in PreCheck. So it is very much 
risk-based.
    If you accept the premise that the vast majority of people 
moving through the system are safe to do so, we want to 
identify who those individuals are. So that is part of the idea 
behind the vetted population or Trusted Traveler population, to 
verify that they are the people who are safe to move to the 
system.
    If you can do that, then you can reduce the level of 
screening that you perform on that individual, as we do in 
PreCheck.
    The remaining people you do not know anything about, then 
you move them into the standard screening, and there is a much 
higher level of scrutiny.
    With respect to your previous comment, I would say that you 
need both, an attention to detail, because people still try to 
bring things through checkpoints that they should not bring 
through. Last year, 2,600-plus guns were stopped at the 
checkpoint, many of them loaded with a round in the chamber. So 
that is unacceptable, in anybody's book. So you want people 
paying close attention.
    Senator Cassidy. By the way, that included my mother-in-
law. It was in her makeup purse. It should have been something 
out of a movie, but----
    Mr. Neffenger. So she lost PreCheck for a period of time.
    Senator Cassidy. Well, she lost a lot, including respect.
    Mr. Neffenger. So I want people to pay attention to detail. 
That is one of the things that was one of the major findings 
coming out, the root cause analysis that we did. You have to be 
good at that.
    You also have to pay attention to, as you said, the bigger 
picture. So we do have people at the checkpoint whose job it is 
to pay attention to that bigger picture and kind of watch the 
dynamics of the checkpoint, the dynamics of the individuals we 
are moving through the checkpoints, and connect that to the 
people who have to do the detail work.
    So if I have somebody sitting on an x-ray machine, I want 
them laser-focused on the images that they are reading. 
Ultimately, I would like to get to the point where a machine 
can do that really well, but right now, you still want that 
person laser-focused.
    I want somebody to pay attention to what might be coming 
through that should not be coming through the checkpoint. I do 
not want to be on an aircraft with people who have loaded 
weapons, unless they are a Federal air marshal or somebody else 
that is authorized to do so.
    But I also want people to pay attention, as I said, to the 
dynamics of the checkpoint and pay attention for those people 
who may look like their behavior indicates that they are up to 
no good. So we have both of those elements at play.
    Senator Cassidy. Senator Shaheen.

                          CHECKPOINT WAIT TIME

    Senator Shaheen. When the Secretary testified last week 
before the House Appropriations Committee, he acknowledged that 
passenger wait times are increasing at security checkpoints, 
and he pointed out that the cause was twofold, an increase in 
passenger volumes but also TSA's renewed focus on screening.
    What is TSA thinking in terms of communicating to the 
public the fact that they should anticipate longer wait times, 
because I know that is one of the biggest frustrations of the 
traveling public. Everybody wants to be safe, but they also 
want it done instantly.
    So what are you thinking about in terms of communicating?
    Mr. Neffenger. There are a number of efforts at play right 
now. It is true that we have seen wait times on average go up. 
Believe it or not, the average wait time about a year ago was 
about 3.5 minutes across the entire system. Now, that is 
average. That means some people were waiting longer, and some 
people were not waiting at all. That has climbed to a little 
over 6 minutes, on average, across the system. So it is a 
doubling.
    Senator Shaheen. Can I ask you, how do you define the wait 
time? Is it from the time you enter the checkpoint until you 
get through the screening?
    Mr. Neffenger. It is. Yes, ma'am. So it is from the time 
you enter the queue to the time you encounter the screening on 
the other end.
    So part of that has been driven by our very real refocus on 
the mission. My opinion is that, and the findings are, that we 
were actually moving people so quickly through the system, we 
were not catching things that we should have caught. That was 
borne out in the Inspector General's testing last year.
    So we have gotten a lot better at that. And from my 
perspective, we had to get better at that and we had to focus 
on that mission. I knew that would cause some pressure on the 
checkpoint.
    Coupled with that, we moved people that were getting 
expedited screening that were, in my opinion, entering a higher 
risk into expedited lanes because we did not know anything 
about them. We pushed them back into standard screening. That 
increased pressure on the screening checkpoint. You also have a 
very large growth in the traveling population.
    So all of that combined together means that we have longer 
wait times than we did before. That said, I think it is 
incumbent upon us to do everything we can to mitigate that to 
the extent possible. So we are working right now--I just got 
off a conference call last week with the top 20 airports, 
airlines servicing those airports, and operation managers for 
those airlines, the Federal security directors (FSDs), to focus 
on airport-by-airport what mitigating measures can we put in 
place.
    We are working with airlines to understand how they are 
loading their flight schedules, so that we are anticipating 
that and we can staff into that. We are husbanding our overtime 
resources now, so we can push as much of that as we can into 
the peak summer months. I have talked to CEOs of all the major 
airlines to look at ways we can collaborate going forward.
    So my goal is to work collaboratively, collectively, 
airport-by-airport at the top 20 airports, which represent 
roughly 85 percent of the daily passenger volume--this is where 
the problems exist--to look at what we can do.
    We are also looking at airports, whether we can adjust the 
way in which the queuing lines are set up and the queues 
themselves, to determine whether there are some efficiencies we 
can gain.
    I believe there are people in the airline industry, in the 
airport industry, that know a lot more about that sometimes 
than we do, and the goal is to look at this really as the 
system that it is and not simply hand off the problem from one 
element to another in the system.
    All that said, however, you cannot forget that this is the 
most complex and dynamic threat environment certainly that I 
have seen in the time that I have been in public service, and I 
have been looking at threat environments for the better part of 
my adult life, as I think of my 34 years in the military and 
the time I have been here.
    It is complex because you have a lot of players in the 
system now, a lot of terrorist groups that have expressed 
direct intent to harm the West, particularly the aviation 
system.
    We have a couple of recent events that tell us this is not 
an abstract notion. And then you have competition among these 
groups, coupled with a very real ability to communicate in a 
way that is unlike anything we have seen before.
    So I have to do the job well. We are in a tough threat 
environment. It is a very busy travel season. It is great for 
the industry. It means that you have a very healthy industry. 
But anybody who has been through airports knows that they are 
very crowded these days.
    So we are doing everything we can. We are working 
collectively with airlines, with airports, with our own folks. 
I am getting a lot of authority through local FSDs to make 
adjustments on the fly. And they we are frontloading our hiring 
to try to catch up with the summer rush. And we will be putting 
press releases out to indicate to people what to expect.
    So I hope that will be adequate in the near term, while at 
the same time looking to see whether we have the staffing model 
right. I need to come back to this committee and tell you 
whether we have enough people to do what we need to do.
    Senator Shaheen. I would urge you, as you are talking to 
those airport operators, to encourage them to look at their 
system-wide approach to checkpoints. Maybe I am the only one, 
but I have been in a number of terminals or airports where you 
go into one terminal and they are very efficient, and you go 
into another one, and they are terrible, in the most cases, 
managing the same number of people.
    So I have to believe it is a function of the individuals on 
the ground there who are actually directing traffic.

                          PRIVATIZED SCREENING

    Just to do one other follow-up before I turn it back over 
to Senator Cassidy, the chair of the Atlanta City Council 
transportation committee was reported recently as being open-
minded about privatizing the screening at Hartsfield because of 
the long wait times.
    Can you speak to whether you think privatizing screening 
would result in shorter wait times?
    Mr. Neffenger. I think whether you have a Federal work 
force or privatized work force under Federal direction, the 
challenges remain the same in the system. You have a lot of 
people moving through the system. You have a limited geographic 
footprint in which to move those people, particularly in some 
of our older airports or airports as they are currently 
designed. And you have the same peak loading problems in the 
system as well. And you have staffing constraints, no matter 
which, because remember, even privatized a work force has to be 
within the same cost estimate as a Federal work force.
    That said, I do not mind if an airport wants to pick a 
private screener to run its contract. Remember that that 
private screening work force has to work to TSA's standards. It 
has to be trained to our standards. They train at the same 
academy that the Federal work force does.
    I think the pressures stay the same on the system, so we 
are still going to be asking questions about whether the 
staffing model is right and looking at finding a more efficient 
way to move people through, trying to redesign the fundamental 
look of a checkpoint so you can move people through more 
efficiently through it.
    There are some real promises on that score out there, and I 
have looked at some models that I think can fundamentally 
change how the experience is for people moving through.
    Senator Shaheen. Well, thank you. Just to be clear, I am 
not sure it is a good idea, but I wanted to get your response 
to it. Thank you.

                  FEDERAL FLIGHT DECK OFFICER PROGRAM

    Senator Cassidy. The Federal Flight Deck Officer program, 
the last line of defense and security, can you elaborate on the 
value of that program and what hard data you have beyond the 
kind of knowledge among some that it might be there? Again, 
that sort of randomness we spoke of. Do you have any hard data 
as to its effectiveness?
    Mr. Neffenger. We will get you the data. I do not have the 
numbers right in my head.
    As you understand or as you know, that program arms a 
certain number of commercial airline pilots. TSA trains them. 
We provide them with their weapons. It is done under the 
authorization act that was passed by Congress.
    It really could be a last line of defense. It is adjunct to 
programs like the Federal Air Marshal program and other 
security programs that we have.
    I would put it in a category of a program that provides 
some additional capability. It is a capability that it is good 
to know it is in the cockpit, and it is one that we hope we 
never have to use, but it is one that is strongly supported by 
the pilots who do that.
    Senator Cassidy. Strongly supported by the pilots but I 
have to guess that it is a small percentage of the pilots who 
participate.
    Now I guess this goes back to my earlier questions about 
seeing all of these things which seem almost atoms, and yet 
somehow the atoms in the collective are supposed to function 
together as a whole piece to stop an event.
    Funding has been static, is my understanding, so if it is a 
good program, it seems it should grow. If it is a program with 
no proven benefit, except people kind of like it, that would be 
important to know. If we have budgetary constraints, you have 
to ideally have some sort of outcome status to show that we 
need to defend this funding, we need to grow that funding, or 
maybe it could atrophy here.
    Any thoughts on that?
    Mr. Neffenger. I think you make a key point and that is 
that you have measures, and you have to be able to determine 
whether those measures tell you that you are doing things the 
right way. I tell my staff every day, you have to question 
everything that you do every day and determine if it is the 
right application of the limited resources that you have.
    I will tell you that there is strong support both within 
the community that carries those weapons as well as within the 
TSA for that.
    But I am asking to look at all the measures across the 
agency, particularly in the face of a potential to have to find 
additional areas for savings within the budget.
    I do think it provides an important backstop service. I owe 
you an array of the measures that we used to determine that, 
and that would include the numbers that are not for public 
consumption, but the numbers of people in the program and how 
they are deployed.
    Senator Cassidy. By the way, for the record, I would 
totally agree that it would be a great backstop, if it achieves 
a certain critical participation. At a smaller participation, 
it is merely a footnote.
    Mr. Neffenger. Yes, I think we could give you a better 
understanding of it if we could give you the numbers that are 
in the program and how they are distributed, how what they do 
is tied into the strategy for the Federal Air Marshal Service 
(FAMS), as well as the deployment of those forces throughout 
the system, what their travel schedules look like and what 
their deployment schedules look like, how we use that as a 
combination of how we deploy our Federal air marshal resources, 
so that you reduce the redundancy and increase coverage across 
the system.
    Senator Cassidy. Yes, that would be good. I appreciate 
that.
    I yield back.

                          SCREENING TECHNOLOGY

    Senator Hoeven [presiding]. Mr. Administrator, the first 
question I have relates to technology. Are you getting the 
technology that meets your needs? And also, the qualified 
products list, are you setting that list up so that your 
requirements are clear and understandable, so those the vendors 
can deliver the technology you need?
    Mr. Neffenger. Let me answer that in a couple ways.
    I think that we have the best technology available now to 
detect nonmetallics and metallics for what we have. I think 
there is work that we can do to improve the participation of 
the private sector, as well as to improve the capabilities of 
this equipment going forward. No surprise, all pieces of 
equipment have technology limitations.
    I mentioned before that you have to evolve at the rate at 
which a threat evolves. My concern would be that if you do not 
continue to evolve this technology, and you do not find robust 
participation from the private sector, we may not have the 
technology we need in the future to detect the things that we 
think are the threats to the system.
    The qualified products list, I have asked to take a hard 
look at that. When I had the Defense Acquisition University 
come in, I had them look at not only how we are developing our 
requirements, understanding capabilities, developing the test 
procedures that we need to determine whether what we think we 
need is what we got, and whether what we got does what we need 
it to do, but also whether the qualified products list, the 
process for getting a system onto the qualified products list, 
is adequate, understood, and transparent.
    So those are all things that we are looking at right now. 
And as I mentioned to Senator Shaheen, I think we owe a deeper 
report to the committee on that, which I have coming your way 
once we get through the initial understanding of what the 
Defense Acquisition University provided us.
    Senator Hoeven. Right, and I think that is important. Some 
of the vendors feel that it is unclear as to what they need to 
do and how they get on that list, and also in terms of what 
your needs are, so that we can maximize their potential for 
meeting your needs in your technology development efforts.
    How are you coming at developing metrics for measuring 
performance?
    Mr. Neffenger. We have completely reworked the way we 
measure. There are really two forms of measurements. I need to 
know, do we have a readiness to perform, meaning whether we are 
looking at the work force or technology, does it meet the 
standards? Is it designed to the standards? Are people trained 
to the standards you need them to be trained to do the things 
they need to do, whether it is to detect something or perform 
in a certain way?
    Then there is a performance standard, because once you are 
assured--take technology, for example. Once you know that you 
have the requirements right, it needs to be able to detect 
certain types of things in certain types of fashion in certain 
locations on the body and in baggage and so forth. Then you 
have to test whether it performs to that standard.
    So there is a readiness measure, and there is a performance 
measure. I have a dashboard now that I look at on a regular 
basis. It says, what is my work force readiness? Are they 
trained to do the things they need to do? And then what is 
their performance? Did they do the things the way they were 
trained to do in the right manner?
    What that tells you is a couple things. One, it gives you a 
very specific answer with respect to any individual person or 
piece of equipment. It gives you aggregate answer with respect 
to the system performance. But it also tells you where you 
might need to adjust or change your requirements or your 
training.
    So we have been looking across-the-board at metrics. There 
is actually quite a bit behind each of those measurements. 
There are about 100 measurements rolled up into readiness and 
performance.
    I am happy to provide details to the committee and the 
staff to see how we are doing that. But I think you would be 
impressed with the measures that we have come up with as well 
as what it tells us about where we need to go.
    Much of what we did to address the challenges raised by the 
Inspector General report are directly related to these 
measures. We developed these measures because we found that we 
were lacking in some of the metrics we needed to determine work 
force performance and technology performance, integration of 
that technology with the human factor.
    You mentioned people, processes, and technology. Those were 
essentially individual stovepipes that you have to tie 
together, and you do that through your measures to see how the 
people, process, and technology work when you put it all 
together in the system itself.

           NATIONAL EXPLOSIVES DETECTION CANINE TEAM PROGRAM

    Senator Hoeven. Canine teams, are you where you need to be 
on canine teams?
    Mr. Neffenger. I like canine teams.
    Senator Hoeven. I do, too. I think they are very effective.
    Mr. Neffenger. They really are. In fact, it is probably one 
of the most effective elements in the whole security system for 
lots of reasons. They are very good at what they do. There is a 
huge deterrence factor.
    So here is what we are doing. TSA is currently funded for 
322 teams, of which about 140 are currently trained as 
passenger screening canines. The remainder are cargo.
    We are in the process of converting all of those teams to 
dual teams, so they can do both cargo and passengers. The 
difference is for cargo, they go up and sniff some specific 
item. The passenger canines are designed to detect the trace 
elements and then trace it back to a source, so it takes 
training to get a dog to do that.
    By the end of this year, we should have about 240 of those 
teams trained as passenger screening dogs. I think we could use 
my dogs. As part of that analysis we are doing on staffing 
needs, I have asked to take a hard look on what is the 
requirement that we could put to use for canine teams. I think 
we could use more than we currently have.
    They do a tremendous job of helping us move people 
efficiently through the system. As I said, they are one of the 
most effective resources out there.
    In fact, I will be going down later this week to dedicate 
the new canine training facility that was funded in previous 
year budgets down at Lackland Air Force Base. So I think it is 
a good model going forward, and I will come to you with a 
number in the next few months to give you a specific on what we 
could actually put to use.
    You know, there is a long lead time to train these things, 
but like I said, we have these 322 teams now, which is very 
useful.
    Senator Hoeven. If you would let my office know when you 
were going down to see the canine training facility, because if 
it works out schedule-wise, I may be interested in going.
    Mr. Neffenger. Excellent. We would love to have you come 
along.
    Senator Hoeven. Maybe the ranking member as well.
    Mr. Neffenger. Okay, excellent.
    Senator Hoeven. Now, I have a couple more questions, but I 
am going to turn to Senator Shaheen to see if you have more 
questions.

                                RAP BACK

    Senator Shaheen. I do. Obviously, one of the things that we 
saw with the downing of the Russian Metrojet was that it was an 
insider attack. I know that TSA is piloting a program called 
Rap Back that would provide real-time criminal history 
monitoring of our work force.
    So can you talk a little bit about how that works and give 
us an update on what you are seeing and whether you envision 
expanding that beyond Dallas-Fort Worth and Boston Logan?
    Mr. Neffenger. The Rap Back program, we are very excited 
about. As you know, that is a Federal Bureau of Investigation 
(FBI) program that provides current, real-time vetting against 
the FBI criminal databases. So, for example, if you get 
arrested, it should pop your name immediately, just like we do 
real-time, current vetting against the terrorist databases.
    As you note, we are going to start the pilot the first 
April in Dallas and Boston. That will run for a couple months. 
Assuming that goes well--and the nature of the pilot is to just 
ensure that we can move the data back and forth in the manner 
we need to, that it is done securely, that we meet the 
cybersecurity standards, so we are not exposing those databases 
to cyberthreat.
    Assuming all goes well, then we will go full time with the 
program across the whole system immediately following that. So 
we hope to go full time by the end of this fiscal year across 
the whole system.
    Senator Shaheen. So are there additional resources that are 
needed, once it goes full time?
    Mr. Neffenger. The request that we have here, I believe it 
is about $1.5 million is the reimbursement request that we have 
with the FBI. I will make sure I have that number right. But 
our request would cover the costs of reimbursing the FBI for 
that service. Then we will continue to build that into our out-
year budgets. But the fiscal year 2017 request assumes an 
entire year of the entire system operating with the Rap Back 
program.
    Senator Shaheen. That is great. Thank you.

                           FAA PRIVATIZATION

    I want to ask about an issue that is not necessarily 
related to your budget. It is something that we discussed when 
you were in my office, but it is something that I think is of 
real interest and concern to the traveling public.
    Legislation has been introduced that would privatize the 
Federal Aviation Administration (FAA). I just wonder if you 
could speak to any concerns that that might raise for you as 
someone who has been involved in TSA now for a period of time, 
whether you think that is a good thing for us to be considering 
or not?
    Mr. Neffenger. Well, from the TSA's perspective, as you 
know, we do not have any direct interaction with the air 
traffic control system. I think this is what you are referring 
to.
    Senator Shaheen. Right.
    Mr. Neffenger. The privatization of the air traffic 
controllers. I think my general thought is this, that when you 
look at certain types of concerns that the Nation has, security 
and safety, and security and safety of systems like aviation 
and others, I think there is a strong Federal interest in 
governing that. That is why even in our case where you have 
privatized screeners, we still have Federal security directors 
and Federal oversight and Federal setting of the standards. I 
think that is because there is a compelling interest on the 
part of the Nation that that be done consistently and 
coordinated.
    What I would say is that any change to the current system 
needs to consider what I think is a very real need for the 
Federal Government to have oversight of safety and security of 
its citizenry and of its systems.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.

                      FEDERAL AIR MARSHAL SERVICE

    Senator Hoeven. The first question relates to Federal air 
marshals. It looks like you have ramped up funding for air 
marshals. I am just wondering where you are in terms of where 
you want to be relative to FAMS.
    Mr. Neffenger. Director Allison just completed a Federal 
air marshals strategy, which includes a staffing standard. That 
is the first time we have had one for the air marshals. This 
budget would hire to that strategy. That is the strategy that 
is making its way through review right now and will be on your 
desk shortly.
    What we are really doing is hiring to the attrition that we 
have seen. As you know, this is the first time we have been 
able to hire since 2011, I believe. The average age of the air 
marshal population right now is 43. We will age out about close 
to 30 percent of that work force in the next 5 years.
    Senator Hoeven. What is the mandatory retirement, 57?
    Mr. Neffenger. I think it is 57. Yes, sir.
    So that work force will reach mandatory retirement, close 
to 30 percent of that work force, in the next 5 years.
    There is no law enforcement agency that can sustain itself 
without having an influx of new people. So we appreciate the 
opportunity to hire into what we see as the attrition that we 
are experiencing now, while we work with you to gain agreement 
on what we believe to be the right number of air marshals going 
forward.
    Senator Hoeven. How does that coordinate with the Federal 
Flight Deck Officer program armed pilots? It seems to me that 
those are two aspects of security that would kind of go 
together, making sure you have armed pilots in the cockpit.
    Mr. Neffenger. They do. As I mentioned to Senator Cassidy 
earlier, they are complementary systems and reinforcing 
systems, in a sense. What you want to do is get that 
distributed in a way that gives you maximum coverage on the 
routes and the aircraft of greatest concern.

                            INSIDER THREATS

    Senator Hoeven. Insider threats, meaning people who work at 
the airport, what are you doing to make sure that, on an 
ongoing basis, you have sufficient security?
    Mr. Neffenger. As you know, when you have a population that 
is trusted--so these are badged people who have access to 
secure and sterile areas of the airport--you need some means of 
verifying that trust is acceptable. We have done a number of 
things in this past year, and we are doing some things right 
now, particularly in the wake of the recent incidents in Sharm 
el-Sheikh as well as Mogadishu, to take a hard look at the way 
in which we secure or verify the trust of our insider 
population.
    So I have ordered across the entire system and all airports 
that require airport security plans to do a detailed threat 
assessment and risk and vulnerability assessment, particularly 
focusing on the insider threat environment. That has to be 
completed across the system by the end of this month.
    When we get those results in, and they are trickling in 
now, when we get those results in, it will give us a true 
airport-by-airport picture of what the environment looks like, 
so: How many employees hold badges? Who are the employers of 
those employees? What kind of access do they have? And what 
measures are already in place to create an expectation of 
inspection and screening?
    I also want to know what airports themselves are doing to 
screen and vet these populations.
    So one aspect is what is actually physically happening on 
the ground. We have heard lots of different anecdotes about 
what is happening airport-to-airport, but I want to get a true 
picture across the system, and then to look for the best 
practices that could be ported across the system.
    The second piece is----
    Senator Hoeven. That is to be in place by when?
    Mr. Neffenger. I will get the results of that by the end of 
this month, and then we will evaluate those results and begin 
to determine the best practices we want to put into the system. 
And then the goal is to get this put into the airport security 
plans in the future, those practices that fundamentally create 
an expectation at any given time during any given day, if you 
are an employee with a badge, that you could find yourself 
subject to inspection or examination while on the airport 
property.

                         CREDENTIALING PROGRAMS

    Senator Hoeven. Kind of two sides of the coin, but we hear 
concerns from truck drivers and others about credentialing. For 
example, a truck driver might need a hazmat endorsement but 
also a TWIC card, and cannot get them both done, all of these 
various credentials from TSA. So are you working to consolidate 
them, so somebody can go through and get the credentialing they 
need, kind of a one-stop shop?
    And then also your equipment connectivity, because it seems 
to me maybe two kind of go together. We talked about people, 
technology, processes. Where are you in terms of making sure 
you have connectivity throughout your system, as far as your 
technology?
    Mr. Neffenger. Okay, with respect to the first, we are 
looking at the one-stop shop for TWIC cards. I know it has been 
a challenge in the past. I think we have addressed a lot of 
those challenges. There are some unique concerns with respect 
to hazardous material endorsements, and some of that is owned 
by some other entities, but we have been tying that together. I 
need to come back to you with where we are on that 
specifically.
    With respect to tying the technology together, I think you 
are talking about the checkpoint technology and integrating it 
and connecting it in an integrated way. Part of the challenge 
we have there is that a lot of these systems are running old 
operating systems. Some are on unsupported, old Microsoft 
Windows XP, for example. We do not currently have Web-connected 
systems. I would like to have Web-connected systems or 
interconnected systems so I can monitor the health of the 
system as a whole.
    Right now, I have to monitor equipment-by-equipment 
individually. That, in my mind, poses its own security risks. 
But it also makes it challenging to see how equipment is 
operating across the system.
    So what I have asked my staff to do is to first of all 
determine what it would take--again, this goes back to some of 
your questions earlier, Senator Shaheen. This has to do with 
open architecture that is easier to update and easier to make 
cyber-healthy, if you will, and cyber-secure.
    So I am right now just trying to get an accounting of what 
the current state of the system is across all of the systems, 
how many individual pieces of equipment do we have that operate 
on different types of operating systems? And what would it take 
to secure those operating systems? Can they be upgraded to 
cyber-compliant operating systems, or do we have to do 
something new entirely?
    I will tell you, it is a big problem. And it is a big 
challenge, I will put it that way. And I think it will be a 
costly fix to go forward, which is why as we put new equipment 
on board, I want to build that piece in on the very front end. 
It is a very clear requirement going forward.
    But right now, we do not have an ability to look across the 
entire system in a way that I think would be most effective.
    Senator Hoeven. A realistic timeline for getting to 
something like that?
    Mr. Neffenger. Well, I think over the course of the coming 
months, we can get an accounting of what the challenges are. 
Then it is really a funding issue at that point. I think there 
is significant cost associated with doing those kinds of 
upgrades, and then we have to weigh the costs of upgrading 
existing equipment against whether it makes sounder business 
sense to just move forward into a new generation of equipment.
    So I cannot give you a specific answer on that piece, but I 
can tell you that we will have an accounting of where we stand 
in the system in the very near term.
    Senator Hoeven. Okay.
    Senator Shaheen, any other questions?
    All right, with that, we will conclude our hearing for 
today.
    Any other comments, Administrator Neffenger, that you have 
before we wrap up?
    Mr. Neffenger. Again, just thanks to the committee for the 
tremendous support you have given us over the past few months. 
I appreciate that.
    My pledge to you is to remain open to your concerns and 
your questions and to be as transparent as I can be with 
respect to what we find. I have a number of reports that will 
continue to find their way to you, and I intend to continue the 
kind of report that I sent you earlier on a quarterly basis 
that just says where we are going and what I see as the 
challenges.
    I appreciate your willingness to work with us on that.
    Senator Hoeven. I appreciate the work and the commitment of 
you and your entire staff on a very important mission.
    The hearing record will remain open for 2 weeks from today. 
Senators may submit written questions for the record. We ask 
the Department to respond to them within a reasonable length of 
time.
    [No questions for the record were submitted to the 
Department for this hearing.]

                          SUBCOMMITTEE RECESS

    Senator Hoeven. With that, the subcommittee stands in 
recess.
    [Whereupon, at 3:58 p.m., Tuesday, March 1, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
